             U.S. Department of Agriculture

                Office of Inspector General
                            Midwest Region




   Audit Report

Farm Service Agency
Compliance Activities




                   Report No. 03601-12-Ch
                          September 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL
                                        Washington, DC 20250




DATE:          September 30, 2005

REPLY TO
ATTN OF:       03601-12-Ch

TO:           Michael W. Yost
              Acting Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young                       /s/
              Assistant Inspector General for Audit

SUBJECT:       Farm Service Agency Compliance Activities


This report presents the results of our audit of the Farm Service Agency compliance
activities. Your agency’s response to the draft report, dated September 29, 2005, is
included in its entirety as exhibit B, with excerpts and the Office of Inspector General’s
(OIG) position incorporated into the relevant sections of the report.

Based on the response, we have not reached management decisions on Recommendations
1, 2, 3, 4, 5 or 6. Management decisions on these recommendations can be reached once
you have provided us with the additional information outlined in the report sections, OIG
Position, following each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned and the timeframes for
implementation for the recommendations. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a
maximum of 6 months from report issuance, and final action to be taken within 1 year of
each management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Executive Summary
Farm Service Agency Compliance Activities

Results in Brief    This report presents the results of our audit of compliance activities at FSA.
                    To ensure the accuracy of payments in its many farm programs, FSA requires
                    numerous compliance reviews and spot checks, which are conducted by
                    every local county office in the country, by State offices, and by the various
                    national office staffs. The purpose of the audit was to evaluate the
                    coordination of FSA’s various compliance review functions, and to determine
                    whether FSA is using its compliance review resources effectively.

                    FSA divisions have required compliance or internal reviews of its numerous
                    programs without evaluating the way these activities were deployed over the
                    years or their impact on operations, particularly at the local level. We found
                    that FSA could achieve significant savings by employing advanced
                    techniques, such as statistical sampling or data mining, in selecting individual
                    program participants for reviews or spot checks and for multiple purposes.
                    Because of the very large number of different compliance reviews performed
                    by FSA divisions, we limited our review to two compliance reviews in two
                    divisions. Even through this limited review, we conservatively calculated
                    that FSA could redirect over 368,000 work hours spent on these two
                    compliance reviews alone, valued at over $3.7 million annually, to other
                    important program activities.

                    FSA also needs to improve its efforts to collect and assess the results of
                    compliance reviews. In the two programs we reviewed, we found that the
                    FSA program divisions do not collect and analyze the compliance review
                    results at the national level. Most of the results were not communicated
                    beyond the individual county offices that performed the reviews. FSA does
                    not use the reviews to either (1) identify systemic noncompliance trends and
                    direct its limited resources to known problem areas or (2) determine the
                    causes of identified improper payments and take actions to correct those
                    causes.     Also, because no analyses are available, FSA’s Financial
                    Management Division (FMD) and Strategic Planning units cannot use
                    compliance review results to prepare their reports to Congress on the status of
                    the agency’s improper payments and material internal control weaknesses.
                    Once program divisions begin analyzing compliance review results, FSA
                    could assign to one division the responsibility for consolidating and sharing
                    the analyses.




USDA/OIG-A/03601-12-Ch                                                                       Page i
                   This one division would collect compliance review results from all program
                   divisions, and then review and distribute them to all FSA divisions with a
                   need for them, including FMD and Strategic Planning. The analyses would
                   facilitate identification and reporting of: (1) improper payments and steps
                   taken to reduce them by FMD, as required by the Improper Payments
                   Information Act of 2002, and (2) material internal control weaknesses by
                   Strategic Planning, as required by the Federal Managers Financial Integrity
                   Act.

Recommendations
In Brief           We recommend that FSA evaluate compliance reviews across FSA programs.
                   FSA should develop recommendations for the most efficient and effective
                   methods for performing the reviews, specifically considering the combination
                   of reviews and the use of advanced sampling techniques, such as statistical
                   sampling, and develop a schedule to implement those recommendations. We
                   also recommend that FSA record the results of all of its compliance reviews
                   in an electronic format that facilitates national office review and analysis, and
                   that FSA analyze those results to identify common problems and to determine
                   the causes of improper payments. In addition, we recommend that FSA
                   develop a process for sharing compliance review analyses among the
                   appropriate FSA program divisions and units. Finally, we recommend that
                   FSA evaluate the practicality of using a data warehousing system that would
                   contain both program data and compliance review results.

Agency Response    In its response to the official draft report dated September 29, 2005, FSA
                   generally agreed with our recommendations and has formed a taskforce to
                   review current compliance activities and make recommendations to FSA
                   management for new processes. We have incorporated applicable portions of
                   the FSA response, along with our position, within the Findings and
                   Recommendations section of the report. The FSA response is included in its
                   entirety in exhibit B of this audit report.

OIG Position       We agree with FSA’s proposed corrective actions; however, based on the
                   response dated September 29, 2005, we cannot reach management decision
                   on Recommendations 1, 2, 3, 4, and 5 until FSA has provided us timeframes
                   to implement the corrective actions. For Recommendation 4, we also need
                   FSA’s commitment to develop a process to continuously analyze compliance
                   review results and take related actions to correct identified internal control
                   weaknesses. To reach management decision for Recommendation 6, FSA
                   needs to provide clarification that compliance review results will be included
                   with program data in the relational databases being established and that
                   funding needed has been requested and a plan formulated to complete this.




USDA/OIG-A/03601-12-Ch                                                                      Page ii
Abbreviations Used in this Report

AFIS                Automated Farm Inspection Selection
APSS                Automated Price Support System
COR                 County Operations Reviewer
CORP                County Operations Review Program
FMD                 Financial Management Division
FMFIA               Federal Managers Financial Integrity Act
FSA                 Farm Service Agency
FY                  Fiscal Year
IPIA                Improper Payments Information Act of 2002
LDP                 Loan Deficiency Payment
MAL                 Marketing Assistance Loan
NAIP                National Agricultural Imagery Program
OBPI                Office of Business and Program Integration
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
ORAS                Operations Review and Analysis Staff
PECD                Production, Emergencies, and Compliance Division
PSD                 Price Support Division
RMA                 Risk Management Agency
SED                 State Executive Director
USDA                U. S. Department of Agriculture




USDA/OIG-A/03601-12-Ch                                                 Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in this Report .......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Efficiency of Compliance Reviews ................................................................................. 4

        Finding 1             FSA Needs To Evaluate the Efficiency of Its Compliance Review Process .......... 4
                                 Recommendation 1 .......................................................................................... 9
                                 Recommendation 2 .......................................................................................... 9

    Section 2. Collection and Analysis of Compliance Review Results ............................................. 10

        Finding 2             FSA Does Not Use Compliance Review Results Effectively ............................... 10
                                 Recommendation 3 ........................................................................................ 13
                                 Recommendation 4 ........................................................................................ 14
                                 Recommendation 5 ........................................................................................ 15
                                 Recommendation 6 ........................................................................................ 15

Scope and Methodology........................................................................................................................ 16

Exhibit A – Summary of Monetary Results ....................................................................................... 17
Exhibit B – Agency Response............................................................................................................... 18
Exhibit B – Agency Response............................................................................................................... 19
Exhibit B – Agency Response............................................................................................................... 20
Exhibit B – Agency Response............................................................................................................... 21




USDA/OIG-A/03601-12-Ch                                                                                                                   Page iv
Background and Objectives
Background               The Farm Service Agency (FSA) was created by the Federal Crop Insurance
                         Reform and Department of Agriculture Reorganization Act of 1994 1 to
                         improve the economic stability of agriculture and the environment. FSA is
                         headquartered in Washington, D.C., and its programs are delivered through
                         an extensive network of field offices consisting of 51 State offices and
                         2,353 county offices.

                         FSA’s national, State, and county offices perform 33 different types of
                         compliance reviews to ensure the accuracy of farm program payments. The
                         national office performs reviews of appraisals of farm loan collateral; the
                         management of Farm Loan Program activities at each State office;
                         Cooperative Marketing Associations whose members are also FSA
                         producers; and commodity warehouses where Federal commodities are
                         stored. State offices review a random sample of farm loan case files within
                         their own State annually and in a neighboring State biennially. State offices
                         also annually review Emergency Conservation Reserve Program applications
                         in every county, as well as farming operations to ensure that individuals do
                         not circumvent the farm payment limitation provisions. During our audit
                         period, the State offices also performed a one-time spot check of
                         2001/2002 crop disaster payments.

                         Acreage Report Spot Checks

                         County offices perform a variety of spot checks of many different FSA
                         programs. For example, county offices perform annual spot checks of
                         acreage reports, which are filed by most of FSA’s producers. Producers who
                         receive Marketing Assistance Loans, Loan Deficiency Payments, Direct
                         Payments, and Counter-cyclical Payments are required to report all crop and
                         acreage data on annual acreage reports. The county office selects a random
                         sample of 10 percent of the electronic acreage reports for spot checks using
                         the Automated Farm Inspection Selection process. The spot check consists
                         of measuring the acreage on each farm selected using aerial photographs,
                         digital imagery, or farm visits. The measured acreage, by crop, is input into
                         the automated system to generate a notification letter for the producer,
                         showing the difference between reported and determined acreage, along with
                         the actions to be taken by the county office, if any.




1
    Public Law 103-354
USDA/OIG-A/03601-12-Ch                                                                         Page 1
                   MAL and LDP Spot Checks

                   County offices also spot check commodities pledged as collateral for
                   Marketing Assistance Loans (MAL) and Loan Deficiency Payments (LDP) to
                   verify that a sufficient amount of the commodity is maintained by the
                   producer to support the outstanding loan amount or LDP. County offices use
                   the Automated Price Support System (APSS) to select a 2.5 percent sample
                   of outstanding loans and LDPs to spot check monthly. The county office
                   sends a field reporter to the producer’s farm to measure the commodities
                   pledged, check the condition of the storage structure, and check the quality of
                   the commodity. Following the completion of the spot checks, the county
                   office enters the number of spot checks with quantity discrepancies in APSS.
                   A manual record of the spot check, which includes details of the
                   measurement of each storage structure, the quality of the commodities, the
                   condition of the storage structures, and any other items noted by the field
                   inspector, is filed in the producer’s file at the county office.

                   Internal Reviews

                   State offices carry out the County Operations Review Program (CORP),
                   which FSA considers to be a separate activity from the compliance reviews
                   and spot checks carried out by the program divisions. CORP was
                   implemented in response to the Federal Managers Financial Integrity Act
                   (FMFIA), which requires agencies to review their internal control systems.
                   CORP consists of reviews of high-risk programs and activities in county
                   offices, follow-up reviews, and reports to management on the outcome of the
                   reviews. State Executive Directors (SED) supervise County Operations
                   Reviewers (COR), who perform the county office and follow-up reviews
                   based on an annual plan developed by State office program chiefs and
                   approved by the SED. CORs are responsible for identifying deficiencies in
                   the specific program under review and reporting the findings directly to the
                   applicable county committee, as well as to the SED and the national office.
                   Failure to follow a procedure, including a mathematical error, is considered a
                   reportable finding.

                   All CORP findings are uploaded to a national office database, where they are
                   analyzed by FSA’s Operations Review and Analysis Staff (ORAS) to
                   determine what findings may be common nationwide. To be considered
                   common, the finding must have been reported in at least 15 percent of the
                   reviews and occurred in at least 30 percent of the States reporting. ORAS
                   generates an annual report of CORP findings, which describes all common
                   findings identified. ORAS also sends letters to the applicable FSA deputy
                   administrators detailing the common findings that equal or exceed a
                   30 percent error rate; the administrators must respond with how they intend
                   to correct the problem. ORAS is not responsible for analyzing and compiling

USDA/OIG-A/03601-12-Ch                                                                     Page 2
                   the results of compliance review activities such as MAL/LDP and acreage
                   report spot checks.

Objectives         The objectives of the audit were to evaluate the coordination of FSA’s
                   various compliance and internal review functions, and to determine whether
                   FSA is using its compliance and internal review resources effectively.




USDA/OIG-A/03601-12-Ch                                                                Page 3
Findings and Recommendations
Section 1. Efficiency of Compliance Reviews

Finding 1           FSA Needs To Evaluate the Efficiency of Its Compliance Review
                    Process

                    FSA performs an excessive number of compliance reviews to identify
                    inaccurate payments or other deficiencies in its various farm programs. This
                    problem exists because the agency has not assessed the way the current
                    compliance review process is deployed, which has evolved over the years.
                    We found that FSA could achieve significant savings in staff resources by
                    employing advanced techniques such as statistical sampling or data mining.
                    In fact, by using statistical sampling for compliance reviews in only two of its
                    program areas, FSA could redirect over 368,000 work hours, valued at over
                    $3.7 million annually, to other important program activities.

                    FSA procedures require separate compliance reviews for most of their
                    approximately 30 programs, as well as some compliance reviews that cover
                    multiple programs. Each applicable program division is responsible for
                    executing and managing each program, including the applicable compliance
                    reviews. As new programs are added, additional compliance review
                    activities are also added. There is no assessment of how the compliance
                    reviews can be performed most efficiently and effectively because FSA has
                    no central unit that is responsible for reviewing, analyzing, or distributing its
                    compliance review results.

                    When we began our audit, we requested information on the various types of
                    compliance reviews performed throughout the agency. Since FSA has no
                    central unit to coordinate compliance activities (see Finding 2), FSA officials
                    could not readily provide us with this information without requesting it from
                    the individual program units. Based on our discussions with Headquarters
                    and field staffs, we identified 33 compliance reviews conducted by staff at
                    the national, State, and county offices. In addition, FSA advised us that they
                    perform 17 internal reviews, which includes CORP.

                    Because of the large number of reviews performed, we limited our audit
                    coverage to a review in each of two FSA divisions–the Marketing Assistance
                    Loan/Loan Deficiency Payment program spot check in the Price Support
                    Division (PSD) and the acreage report spot check in the Production,
                    Emergencies, and Compliance Division (PECD).




USDA/OIG-A/03601-12-Ch                                                                       Page 4
                               Number of MAL/LDP and Acreage Report Spot Checks Could Be Reduced

                               FSA’s Price Support handbook 2 requires county offices to perform monthly
                               spot checks of commodities pledged as collateral for outstanding MALs and
                               LDPs, in order to verify that the producer maintains a sufficient amount of
                               the commodity. FSA’s APSS selects a sample of 2.5 percent of the
                               outstanding loans and LDPs in every county each month for spot checks.
                               County offices send field reporters to each farm to measure the stored
                               collateral.

                               We determined that county office staffs completed 105,885 spot checks of
                               outstanding MALs and LDPs in calendar year 2004, using data we obtained
                               at three county offices in Ohio. We calculated the number of spot checks
                               performed because FSA could not supply us with the data. We also
                               determined that field reporters take approximately 3 hours to complete each
                               spot check at a cost of at least $30.93 each, based on a grade level GS-4 field
                               reporter’s hourly wage of $10.31 per hour. The 105,885 spot checks
                               conducted in 2004 required 317,655 hours to complete, at a cost of about
                               $3,275,023. See Table 1, below.

                               FSA’s Acreage and Compliance Determinations handbook 3 requires county
                               offices to spot check on an annual basis 10 percent of active farms that have
                               filed acreage reports. Nearly all of FSA’s program participants are required
                               to file annual reports of acreage and crops on their farms. The Automated
                               Farm Inspection Selection (AFIS) process randomly selects 10 percent of
                               active farms that have filed acreage reports. County office staff perform the
                               spot checks by measuring each field using aerial photographs or digital
                               imagery. If visual inspection of the photographs or digital imagery is not
                               adequate to verify the acres and the crops planted, a field visit to the farm is
                               made to take a physical measurement.




2
  FSA Handbook 12-PS, “Automated Price Support Procedures and Common Functions for Grains, Oilseeds, and Rice,” paragraph 1500,
dated 5/18/01.
3
  FSA Handbook 2-CP, “Acreage and Compliance Determinations,” paragraph 359, dated 4/15/04.
USDA/OIG-A/03601-12-Ch                                                                                                Page 5
                     PECD data showed that 207,451 farms were selected for spot checks by
                     county offices in calendar year 2004, for crop year 2003, the latest year for
                     which acreage report spot checks had been completed. Based on our reviews
                     in three county offices in Ohio, we determined that either a GS-3, GS-6, or
                     GS-7 county office employee took approximately 0.9 hours to complete each
                     spot check, at a cost of at least $8.26 each, based on a GS-3 employee’s
                     hourly wage of $9.18 per hour. These 207,451 spot checks required
                     186,706 hours to complete, at a cost of about $1,713,961. See Table 1,
                     below.

                     To determine if FSA was using the most efficient method to conduct
                     compliance reviews, we discussed the MAL/LDP and acreage report spot
                     checks with Office of Inspector General’s (OIG) statistician. He stated that,
                     by using statistical sampling, FSA could significantly reduce the number of
                     spot checks and project the spot check results to the entire population of
                     MALs/LDPs and acreage reports. He explained that, based on the nationwide
                     population sizes of both MALs/LDPs and acreage reports, FSA would need
                     to select a statistical sample of approximately 300 each time the spot check
                     process is performed to yield accurate results.

                     We compared the costs in hours and dollars for the statistical sample size to
                     the costs for the current sample sizes used for the MAL/LDP and acreage
                     report spot checks. Considering that FSA may want to perform spot checks
                     more often than once per year, we calculated the costs for performing them
                     quarterly, semi-annually, and annually, with a statistical sample size of
                     300 selected each time the spot checks are performed. The costs are based
                     on the salaries of field reporters and county office staff, as explained
                     previously.

                                                                      Statistical Sampling Basis
                                                      Current
                      Compliance Review                                           Semi-
                                                      Method      Quarterly                 Annually
                                                                               Annually
             MAL/LDP spot check:
             A.   Number of spot checks               105,885       1,200        600         300
             B.   Hours
                                                      317,655       3,600       1,800        900
                  (Line A x 3 hours/spot check)
             C.   Cost
                                                     $3,275,023    $37,116     $18,558      $9,279
                  (Line B x $10.31/hour)
             Acreage report spot check:
             D.   Number of spot checks               207,451       1,200        600         300
             E.   Hours
                                                      186,706       1,080        540         270
                  (Line D x 0.90 hours/spot check)
             F.   Cost
                                                     $1,713,961    $9,914       $4,957      $2,479
                  (Line E x $9.18/hour)
                                                     Table 1

USDA/OIG-A/03601-12-Ch                                                                       Page 6
                               From Table 1, we calculated that FSA could save 316,755 4 hours and
                               $3,265,744 5 annually on MAL/LDP spot checks, and 186,436 6 hours and
                               $1,711,482 7 annually on acreage report spot checks, by statistically selecting
                               samples for spot checks, performed on an annual basis, versus the current
                               random selection processes.

                               In discussing the current method of performing spot checks with national
                               office staff, the director for PSD stated that many county offices are unable to
                               complete all of the random MAL/LDP spot checks each month due to limited
                               resources. He acknowledged that PSD needs to revise its current procedures,
                               which have been in place for over ten years. The Deputy Director for PECD
                               also stated that spot checks of acreage reports have not been a priority
                               because they are not as important as they once were because most programs
                               use historical yields in determining payments. However, he stated that the
                               acreage data that is collected will be used for future program payments, and
                               therefore it is still important to collect accurate data.

                               At the exit conference, FSA officials stated that they have begun making the
                               acreage report spot check procedure more efficient. Specifically, FSA is
                               reducing the amount of time it takes to perform each spot check by using
                               digital imagery under a national contract known as the National Agricultural
                               Imagery Program (NAIP). FSA officials informed us that in fiscal year (FY)
                               2002 they deployed a pilot project in two States to perform the spot checks
                               using digital imagery (either digital photographs or 35mm slides converted to
                               digital imagery). FSA has since increased the use of NAIP imagery each
                               year and planned to have NAIP imagery available to perform acreage spot
                               checks for all counties in FY 2005. However, budget constraints have
                               limited the number of States for which NAIP imagery for FY 2005 can be
                               obtained, and NAIP imagery will be available for only 33 States for FY 2005.
                               The remaining 17 States will not perform any random spot checks in FY
                               2005. States selected to be flown were based on data from programs that rely
                               on specific acreages for payment calculations. All States that have partners
                               for cost sharing for imagery in FY 2005 were also selected. 8

                               Based on its analysis of a sample of 148 farms, FSA estimates that it takes
                               0.25 hours to perform each acreage report spot check using the new NAIP
                               imagery – a reduction in the time needed to conduct each spot check, when
                               compared to the 0.90 hours per spot check (estimated by OIG) under the
                               “old” method of spot-checking from 35mm slides. However, use of NAIP
                               imagery does nothing in and of itself to reduce the number of spot checks
                               performed by FSA. We calculated the savings FSA could achieve using

4
  317,655 hours minus 900 hours = 316,755 hours
5
  $3,275,023 minus $9,279 = $3,265,744
6
  186,706 hours minus 270 hours = 186,436 hours
7
  $1,713,961 minus $2,479 = $1,711,482
8
  FSA Notice CP-591, “FY 2005 Compliance Activities,” dated 5/26/05.
USDA/OIG-A/03601-12-Ch                                                                                  Page 7
                                  statistical sampling techniques for acreage report spot checks based on the
                                  FSA estimate of 0.25 hours for each acreage report spot check using NAIP
                                  imagery. See Table 2.

                                                                                             Statistical Sampling Basis
                                                                           Current
                                    Acreage Report Spot Check                                            Semi-
                                                                           Method        Quarterly                 Annually
                                                                                                      Annually
                             A.     Number of spot checks                   207,451       1,200           600        300
                             B.     Hours (Using NAIP)
                                                                            51,863           300           150       75
                                    (Line A x 0.25 hours/spot check)
                             C.     Cost (Using NAIP)
                                                                           $476,102        $2,754         $1,377    $689
                                    (Line B x $9.18/hour)
                                                                         Table 2

                                  From Table 2, we calculated that FSA could achieve estimated annual
                                  savings of 51,788 9 hours and $475,413 10 in the conduct of its (NAIP) acreage
                                  report spot checks by sampling annually on a statistical basis. Together with
                                  the previously calculated savings for the MAL/LDP spot checks, we
                                  determined FSA could accrue annual savings of 368,543 11 staff hours, valued
                                  conservatively at $3,741,157 12 , if FSA employed statistical sampling in the
                                  conduct of its MAL/LDP and (NAIP) acreage report spot checks.

                                  FSA is already considering statistical sampling techniques for one of its
                                  internal review processes, the CORP. ORAS staff, who are responsible for
                                  analyzing and compiling the results of CORP reviews, told us that they are
                                  studying the use of statistical sampling to select county offices and programs
                                  for CORP reviews on a nationwide basis to enhance the credibility of the
                                  review results, principally because program directors did not believe the
                                  review results which disclosed problems were representative of conditions
                                  nationwide. Currently, each SED judgmentally selects the offices and
                                  programs to be reviewed by the CORP in his or her State. The director of
                                  ORAS stated that using statistical sampling would reduce the number of
                                  reviews needed and allow ORAS to target CORP reviews.

                                  For the same reasons, we concluded that FSA should consider statistical
                                  sampling for its compliance review activities, in addition to the internal
                                  CORP reviews. By using a more efficient method such as statistical
                                  sampling for its compliance reviews, FSA could realize substantial annual
                                  savings of staff hours and the associated costs.




9
  51,863 hours minus 75 hours = 51,788 hours
10
   $476,102 minus $689 = $475,413
11
   316,755 hours on MAL/LDP spot checks plus 51,788 hours on acreage report spot checks = 368,543 hours
12
   $3,265,744 for MAL/LDP spot checks plus $475,413 on acreage report spot checks = $3,741,157
USDA/OIG-A/03601-12-Ch                                                                                              Page 8
Recommendation 1

                   Evaluate compliance reviews across FSA programs. In consultation with
                   other divisions and agencies, as appropriate, develop recommendations for
                   the most efficient and effective methods for performing the FSA reviews,
                   specifically considering the combination and coordination of reviews across
                   division and agency lines, as practicable, and the use of advanced sampling
                   techniques, such as statistical sampling.

                   Agency Response

                   FSA officials agreed with the recommendation. They stated a task force was
                   formed in August 2005 to review current compliance activities across
                   division and agency lines, where applicable, and to make recommendations to
                   FSA management for new processes. The task force, consisting of members
                   of FSA’s Farm Programs and Farm Loan Programs on the national, State, and
                   county levels and OIG, held its first meeting on August 11, 2005, and plans to
                   continue with weekly meetings until recommendations can be made to FSA
                   management.

                   OIG Position

                   To achieve management decision, we need documentation of the task force’s
                   recommendations to FSA management.

Recommendation 2

                   Develop a schedule to implement the actions planned based on the results of
                   the evaluation performed as part of Recommendation 1.

                   Agency Response

                   FSA officials agreed with the recommendation. As stated in their response to
                   Recommendation 1, a task force will make recommendations to FSA
                   management to improve FSA’s compliance system. FSA plans to implement
                   approved recommendations as soon as practical. The task force will develop
                   a timeline and priorities for implementation after approval.

                   OIG Position

                   To achieve management decision, we need descriptions of the approved task
                   force recommendations relative to its evaluation of FSA’s compliance
                   reviews (Recommendation 1) and the timeline. and priorities for their
                   implementation.

USDA/OIG-A/03601-12-Ch                                                                    Page 9
Section 2. Collection and Analysis of Compliance Review Results

Finding 2                         FSA Does Not Use Compliance Review Results Effectively

                                  In addition to conducting compliance reviews more efficiently, FSA needs to
                                  improve how it uses the results of those reviews. Specifically, FSA does not
                                  collect and analyze the results of compliance reviews at the national level in
                                  order to identify program trends or to determine the causes of identified
                                  improper payments and take actions to correct those causes (and reduce
                                  improper payments). Current FSA requirements do not address the need to
                                  analyze compliance review results. As a result, FSA uses compliance
                                  reviews only to identify individual discrepancies, not to identify systemic
                                  weaknesses within its program areas. Also, because no analyses are
                                  available, FSA’s Financial Management Division (FMD) and Strategic
                                  Planning units cannot use compliance review results to prepare their reports
                                  to Congress on the status of the agency’s improper payments and material
                                  internal control weaknesses.

                                  The Office of Management and Budget (OMB) provides guidance to Federal
                                  managers on improving the accountability and effectiveness of Federal
                                  programs and operations by establishing, assessing, correcting, and reporting
                                  on management controls. 13 Agencies must implement management controls
                                  to reasonably ensure that programs achieve their intended purpose; resources
                                  are used consistent with the agency mission; programs and resources are
                                  protected from waste, fraud, and mismanagement, and used in accordance
                                  with laws and regulations; and reliable and timely information is obtained,
                                  maintained, reported, and used for decision making. FSA does this in part
                                  through their procedures for compliance reviews of program operations. And
                                  while individual discrepancies, such as shortages of loan collateral, are
                                  corrected when identified by compliance spot checks, FSA does not analyze
                                  compliance results for trends or patterns of abuse on a nationwide basis and
                                  then direct their limited resources to address those problems.

                                  Through our review of the MAL/LDP and acreage report spot checks, we
                                  found that FSA does not require county offices to compile the results in
                                  electronic databases and forward compliance review results to the program
                                  division at the national office for analysis. The PSD does not collect any
                                  MAL/LDP spot check results at the national level, and the PECD maintains
                                  very limited results data for only the current month’s acreage report spot
                                  checks at the national office. We found that most compliance review data is
                                  dispersed among various county office databases and manual files, where it is
                                  used only to resolve individual discrepancies identified in the county.


13
     OMB Circular A-123, Management Accountability and Control, Sections 1 and 2, dated June 21, 1995.
USDA/OIG-A/03601-12-Ch                                                                                   Page 10
                   MAL/LDP Spot Check Results Not Analyzed

                   For MAL/LDP spot checks, spot check data is isolated in an electronic
                   database and manual files at FSA’s 2,353 county offices. As a result, PSD
                   staff at the national office cannot analyze the data or even provide
                   information on the number of MAL/LDP spot checks completed in a given
                   year. The director of PSD stated that he relies on the results of FSA’s
                   internal CORP reviews to monitor the MAL/LDP spot checks. However, the
                   CORP reviews only identify the number of county offices that have not
                   completed their spot checks; they do not analyze the results of the spot
                   checks.

                   We further noted that the MAL/LDP data in the APSS database at the
                   individual county offices would be more useful for analysis if more complete
                   information were captured. We determined that only the number of spot
                   checks performed and the number of those with discrepancies is captured in
                   the automated system at the county level; the results entered into the system
                   do not indicate what the discrepancies were. Complete manual records of
                   spot checks, which include the measurement of all farm-stored quantities for
                   the selected MALs and LDPs, the quality of the structure, and the quality of
                   the commodity, are simply filed in the producer’s loan file at the county
                   office. However, despite the incomplete data currently entered in APSS,
                   PSD could still perform a limited analysis of MAL/LDP spot check results if
                   they were available at the national level.

                   Acreage Report Spot Check Results Not Analyzed

                   For the acreage report spot check, county offices measure acreage for all
                   specified crops on each farm selected and record the measured acreage in the
                   automated acreage report system. County office staff use the acreage
                   information in the automated system only to generate a notification letter for
                   the producer. This data remains at the county office. Although PECD staff
                   at the national office receive data each month on the number of the acreage
                   report spot checks that resulted in discrepancies, the current month’s results
                   replace the previous month’s results in the system. Since only the current
                   month’s data is available, and the measured and reported acreage data
                   remains at the county office, no meaningful analysis can be performed.
                   Through interviews with PECD national office staff, we determined that
                   PECD uses spot check results only to monitor the completion of spot checks,
                   not to target its compliance review resources.




USDA/OIG-A/03601-12-Ch                                                                  Page 11
                              Additional Opportunities to Enhance Analysis

                              At a minimum, FSA needs to collect complete compliance review results
                              from the county offices and analyze each type of review or spot check at the
                              national level. Additionally, FSA should consider creating a consolidated
                              database for all compliance review results, and other necessary program
                              participant data, which would enable FSA to use data mining techniques to
                              identify trends in compliance reviews throughout the agency, to more
                              effectively and efficiently allocate its resources. According to OIG’s
                              statistician, collecting data such as the scope and dollar value of
                              discrepancies in a consolidated database would allow FSA to identify
                              potentially significant erroneous payments and focus its sampling efforts at
                              higher risk areas through the use of data mining.

                              The U.S. Department of Agriculture’s (USDA) Risk Management Agency
                              (RMA) is already using advanced data mining technology to target its
                              compliance reviews and investigations, with significant results. In the past,
                              RMA collected large amounts of data, which were stored in different
                              databases across the agency. Recently, RMA created a single data
                              “warehouse,” allowing RMA investigators to “mine” all existing crop
                              insurance data records to uncover patterns. For example, RMA can identify
                              structured schemes for fraud and investigate them preemptively. According
                              to RMA’s calendar year 2002 report submitted to Congress, RMA calculated
                              that, in the first two years of the project, they have saved more than
                              $160 million on the crop insurance program. RMA also concluded that data
                              mining is an invaluable tool for preventing fraud and erroneous indemnity
                              payments. 14

                              Agency-wide Need for Compliance Review Analyses

                              If FSA analyzed compliance review results, it would be able to share that
                              valuable information among its various divisions and units. In particular,
                              FSA’s FMD and its Strategic Planning Branch, which report to Congress on
                              the agency’s improper payments and internal control weaknesses, would
                              benefit from analyses of compliance review results, since such analyses
                              should include actions to correct the causes for the identified improper
                              payments and to reduce improper payments.

                              •    FMD is responsible for reviewing all FSA programs and activities to
                                   identify those that may be susceptible to significant improper payments,
                                   as required by the Improper Payments Information Act of 2002 (IPIA).
                                   The IPIA requires agencies to report annually on the extent of erroneous


14
  “Risk Management Agency: Preventing Fraud. Protecting Farms. Program Compliance and Integrity Annual Report to Congress,
January 2002-December 2002,” dated November 2004.
USDA/OIG-A/03601-12-Ch                                                                                          Page 12
                                        payments in their programs. 15 Because compliance review results and
                                        analyses are not readily available to FMD, the IPIA report may not
                                        accurately reflect FSA programs’ susceptibility to improper payments.
                                        The deputy director for FMD agreed that analyses of compliance review
                                        results would be very helpful in preparing FSA’s estimate of improper
                                        payments. However, FMD cannot access compliance reviews efficiently
                                        if they are dispersed in each program division.

                                   •    The Strategic Planning Branch of FSA’s Office of Business and Program
                                        Integration (OBPI) is responsible for annually identifying material
                                        internal control weaknesses and reporting those weaknesses to Congress,
                                        as required by FMFIA. The FMFIA requires ongoing evaluations and
                                        reports on the adequacy of agencies’ internal control systems. 16 Because
                                        FSA’s compliance reviews may identify areas of internal control
                                        weakness, analyses of compliance review results would assist the
                                        Strategic Planning Branch in preparing the agency’s FMFIA report. A
                                        management analyst in the Strategic Planning Branch stated that the
                                        office must go to each FSA program division to get information on
                                        internal control weaknesses.

                                  To strengthen its compliance activities, FSA needs to require its program
                                  divisions to collect and thoroughly analyze the results of compliance reviews
                                  and to determine the causes of improper payments and the actions needed to
                                  reduce these improper payments. FSA should also make those analyses
                                  available throughout the agency. To accomplish this, FSA could assign
                                  responsibility for compiling and disseminating the analyses of compliance
                                  reviews to one division. The director of ORAS, the unit that analyzes and
                                  compiles the results of FSA’s internal CORP reviews, stated that his staff
                                  could consolidate the results of FSA’s compliance reviews.

Recommendation 3

                                  Record the results of all compliance reviews in an electronic format that
                                  facilitates national office review and analysis.

                                  Agency Response

                                  FSA officials agreed with the recommendation. They stated that a thorough
                                  analysis will be conducted to determine how spot-check results are currently
                                  captured, and the task force mentioned in their response to Recommendation
                                  1 would make recommendations to FSA management on how the data should
                                  be maintained for future review and analysis.


15
     “The Improper Payments Information Act of 2002,” Public Law 107-300, dated 11/26/02.
16
     “Federal Managers Financial Integrity Act of 1982,” Public Law 97-255, dated 9/08/82.
USDA/OIG-A/03601-12-Ch                                                                                   Page 13
                   OIG Position

                   To achieve management decision, we need a description of the approved task
                   force recommendations relative to methods of capturing FSA’s compliance
                   review results, and timeframes for their implementation.

Recommendation 4

                   Analyze compliance review results at the national office to identify common
                   problems in need of corrective actions and to determine the causes of
                   identified improper payments and actions to reduce such improper payments.
                   Such analyses should employ data mining techniques to the extent practicable
                   in order to identify patterns or relationships.

                   Agency Response

                   FSA officials generally agreed with the recommendation. They stated that the
                   task force mentioned in their response to Recommendation 1 was given the
                   responsibility of analyzing compliance review results to identify common
                   problems in need of corrective actions to determine improper payments and
                   the cause. Upon completion of this analysis, the task force will make
                   recommendations to FSA management.

                   OIG Position

                   Agencies should continuously analyze compliance review results to identify
                   internal control weaknesses associated with their programs. Identifying
                   internal control weaknesses and taking related corrective actions are critically
                   important to creating and maintaining a strong internal control infrastructure
                   that supports the achievement of agency objectives through reduced
                   vulnerability to noncompliance and corresponding increased program
                   integrity. In addition to periodic assessments (such as the one proposed by
                   FSA in its response to this recommendation (Recommendation 4)), agency
                   managers should continuously monitor and improve the effectiveness of
                   internal controls associated with their programs.

                   To achieve management decision, we need descriptions of the approved task
                   force recommendations relative to the analysis of compliance review results ,
                   and timeframes for their implementation. Further, we need FSA’s
                   commitment to develop a process to continuously analyze compliance review
                   results and take related actions to correct identified internal control
                   weaknesses, to include timeframes for implementing such a process.




USDA/OIG-A/03601-12-Ch                                                                    Page 14
Recommendation 5

                   Develop a process for sharing compliance review analyses among the
                   appropriate FSA divisions and units, including FMD and Strategic Planning.

                   Agency Response

                   FSA officials agreed with the recommendation. They stated that the task
                   force mentioned in their response to Recommendation 1 would conduct a
                   thorough analysis of how compliance review data can be shared among FSA
                   divisions and units. Upon completion of this analysis, the task force will
                   make recommendations to FSA management.

                   OIG Position

                   To achieve management decision, we need a description of the approved task
                   force recommendations relative to sharing compliance review data among
                   FSA divisions and units, and timeframes for their implementation.

Recommendation 6

                   Evaluate the practicality of using a data warehousing system that would
                   contain both program data and compliance review results.

                   Agency Response

                   FSA officials generally agreed with the recommendation. They stated that
                   FSA is in the process of moving all data to the web and, therefore, all
                   program data will be housed in relational data bases. The timeline for
                   completing migration and re-engineering is dependent on the budget.

                   OIG Position

                   To reach management decision, FSA officials need to clarify that compliance
                   review results, along with program data, will be included in the relational data
                   bases being established. FSA also needs to provide support that the necessary
                   funding has been requested and a time-phased plan formulated for completion
                   of the migration of the program data and compliance review results to
                   relational databases.




USDA/OIG-A/03601-12-Ch                                                                    Page 15
Scope and Methodology
                   We conducted our audit at FSA Headquarters in Washington, DC, and the
                   Ohio State office in Columbus, Ohio. We also visited the Licking, Logan,
                   and Madison county offices in Ohio. We identified 17 internal reviews and
                   33 compliance reviews performed in various FSA divisions by the national,
                   State, and county offices. Due to the large number of reviews, we focused on
                   compliance reviews only. We judgmentally selected one compliance review
                   in each of two divisions–the MAL/LDP program spot check in the PSD and
                   the acreage report spot check in the PECD. We selected the MAL/LDP spot
                   check because these two programs comprise over 30 percent of FSA’s FY
                   2005 budget, and we selected the acreage report spot check because
                   producers who participate in 75 percent of FSA’s programs are required to
                   report acreage.

                   The audit covered FY 2002 through FY 2004 and was conducted in
                   accordance with Generally Accepted Government Auditing Standards.

                   To accomplish the audit objectives, we performed the following steps:

                   •     Reviewed applicable laws, regulations, and FSA guidance concerning
                         compliance reviews.

                   •     Interviewed national office officials in each program division to
                         determine the compliance activities performed by national office staff and
                         to compile a complete list of FSA’s compliance reviews.

                   •     Interviewed Ohio State office staff to determine the compliance activities
                         performed at the State office and to compile a list of compliance reviews.

                   •     Interviewed county office staff in Licking, Logan, and Madison counties
                         to compile a list of compliance reviews.

                   •     Reviewed county office documentation of MAL/LDP spot checks,
                         acreage report spot checks, and Direct and Counter-Cyclical Program
                         spot checks performed in calendar year 2004 by the Licking, Logan, and
                         Madison county offices.




USDA/OIG-A/03601-12-Ch                                                                     Page 16
Exhibit A – Summary of Monetary Results
                                                                                                              Exhibit A – Page 1 of 1




         Finding
                                     Description                          Amount                        Category
         Number
                            Annual savings if statistical
                                                                                               Funds To Be Put to Better
                             sampling is employed in
                                                                                      17         Use, Management or
              1             conducting annual acreage                   $3,741,157
                                                                                                      Operating
                            report and MAL/LDP spot
                                                                                                Improvements/Savings
                                      checks




17
     $3,265,744 savings on MAL/LDP spot checks, plus $475,413 savings on acreage report (NAIP) spot checks.
USDA/OIG-A/03601-12-Ch                                                                                                      Page 17
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 4




USDA/OIG-A/03601-12-Ch                      Page 18
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 4




USDA/OIG-A/03601-12-Ch                      Page 19
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 4




USDA/OIG-A/03601-12-Ch                      Page 20
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 4




USDA/OIG-A/03601-12-Ch                      Page 21
Informational copies of this report have been distributed to:

Administrator, FSA
       Agency Liaison Officer                                   (4)
General Accountability Officer                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division           (1)
